                 Department of the Interior
                 Office of Inspector General




              Audit Report



                  U.S. Fish and Wildlife Service
       Wildlife and Sport Fish Restoration Program Grants
          Awarded to the Commonwealth of Puerto Rico,
       Department of Natural and Environmental Resources,
            From July 1, 2006, Through June 30, 2008




Report No.
R-GR-FWS-0009-2009                      December 2009
               United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                    Reston, VA 20191

                                                                             December 3, 2009

                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the Commonwealth of Puerto Rico, Department of Natural and
           Environmental Resources, From July 1, 2006, Through June 30, 2008 (No. R-GR-
           FWS-0009-2009)

        This report presents the results of our audit of costs claimed by the Commonwealth of
Puerto Rico (Commonwealth), Department of Natural and Environmental Resources
(Department), under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS
provided the grants to the Commonwealth under the Wildlife and Sport Fish Restoration
Program (the Program). The audit included claims totaling approximately $15.1 million on 69
grants that were open during Commonwealth fiscal years (CFYs) ended June 30 of 2007 and
2008 (see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting
license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Department had not assented to the Sport
Fish Restoration Act. Furthermore, the Department did not exercise effective control over two
tracts of land purchased with Program funds or reconcile its real property records with FWS.

        Prior to the commencement of our audit, the Department had not reported program
income earned on the Hunter Education grant. However, the Department revised the financial
status report to reflect program income before we completed our audit fieldwork. We therefore
determined that no recommendation regarding this issue was necessary.
        We provided a draft report to FWS for a response. We summarized Department and
FWS Region 4 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

      Please respond in writing to the findings and recommendations included in this report by
March 3, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States 2 to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. For certain government entities, including the Commonwealth, the Acts allow for full
reimbursement of eligible costs incurred under the grants. The Acts also require that hunting and
fishing license revenues be used only for the administration of the State’s fish and game agency. 3
Finally, federal regulations and FWS guidance require States to account for any income they
earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used hunting license revenues solely for wildlife program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $15.1 million on the 69 grants that were open
during CFYs ended June 30, 2007 and 2008 (see Appendix 1). We report only on those
conditions that existed during this audit period. We conducted our audit at Department
headquarters in San Juan, PR, and visited one nature reserve, one boat ramp, two reservoirs, and
one fish hatchery (see Appendix 2). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act Amendments of 1996 and by Office of Management and
Budget CircularA-133.



1
    16 U.S.C. §§ 669 and 777, as amended, respectively.
2
 The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico, the
Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.
3
    The Commonwealth does not require fishing licenses at this time.


                                                          3
                                       Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting license revenues solely for
       administration of its fish and game agency; and

   •   determining whether the Commonwealth passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Department’s operations.

Prior Audit Coverage
On September 19, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the Commonwealth of Puerto Rico, Department of
Natural and Environmental Resources, from July 1, 2001, through June 30, 2003” (No. R-GR-
FWS-0014-2004). We followed up on all nine recommendations in the report and found that the
Department of the Interior, Office of Assistant Secretary for Policy, Management and Budget
(PMB) considers four recommendations closed and five recommendations resolved but not
implemented. Two of the open recommendations dealt with minor reporting errors on hunting
                                                 4
license certifications, and the other three concerned grant administration, project level
accounting, and asset management. We did not identify any conditions during our current audit
that warrant repeating the findings from the prior audit, but we note that PMB cannot classify
recommendations as implemented until it receives adequate documentation supporting that
classification.

We also reviewed the Commonwealth’s Single Audit Reports for CFYs ending June 30, 2007
and June 30, 2008. The Department’s Wildlife and Sport Fish Restoration Program was selected
as a major program for review in the Single Audits, but no opinion was issued.




                                               5
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Inadequate Assent Legislation. The Department had not assented to the provisions of
       the Sport Fish Restoration Act.

       Unreconciled Real Property Records. We found discrepancies between the real
       property records maintained by the Department and FWS because they had not reconciled
       their respective records. As a result, the Department lost administrative control over at
       least two tracts of land purchased with Program funds.

Findings and Recommendations
A.     Inadequate Assent Legislation

       The Code of Federal Regulations (C.F.R.), in 50 C.F.R. § 80.3, requires States to pass
       legislation assenting to the Acts’ provisions before participating in the Wildlife and Sport
       Fish Restoration Program.

       The Commonwealth passed legislation that assents to the provisions of the Wildlife
       Restoration Act but not to the Sport Fish Restoration Act. Department officials did not
       believe that a specific reference to the Sport Fish Restoration Act was required in the
       assent legislation. Without adequate assent legislation, the Commonwealth could be
       deemed ineligible to participate in the Program.

       Recommendation

       We recommend that FWS require the Department to work with the Commonwealth’s
       legislature to pass legislation assenting to the Sport Fish Restoration Act.

       Department Response

       The Department did not concur with the finding but stated that it would draft a bill to
       incorporate suggested language in its assent legislation.




                                                6
     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Department in developing proposed language that addresses the
     requirements of the Sport Fish Restoration Act.

     OIG Comments

     Based on the FWS response, additional information is needed in the corrective action
     plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion dates;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

B.   Unreconciled Real Property Records

     The Department and FWS each maintain records on lands purchased with Program funds.
     However, these two sets of records contained discrepancies because they had not been
     reconciled. For instance, the Department’s records did not include two tracts of land that
     were actually purchased with Program funds. As a result, these properties were not
     administered by the Department and were not under its control.

     Under 50 C.F.R. § 80.18, States are responsible for the accountability and control of all
     assets acquired with Program funds to assure that they are used for the purpose for which
     they were acquired throughout their useful life. Accordingly, until the Department
     reconciles its records with FWS and obtains control over all lands purchased with
     Program funds or license revenue, it cannot ensure that these lands are being used for
     their intended purposes.

     Recommendation

     We recommend that FWS ensure the Department reconciles its land records with FWS
     and obtains control over all lands purchased with Program funds.

     Department Response

     The Department concurred with the recommendation and has included the tracts in its
     land inventory.




                                             7
FWS Response

FWS Regional officials concurred with the recommendation and stated that they would
work with the Department to reconcile the real property records.

OIG Comments

Based on the FWS response, additional information is needed in the corrective action
plan, including:

   •   the specific action(s) taken or planned to address the recommendation;

   •   targeted completion dates;

   •   titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                        8
                                              Appendix 1
                                                Page 1 of 3

          COMMONWEALTH OF PUERTO RICO
DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2006, THROUGH JUNE 30, 2008

         Grant        Grant     Claimed
        Number       Amount       Costs
        F-9-18       $226,121    $159,441
        F-9-19        225,075     192,938
        F-9-20        308,270      12,153
        F-16-18       175,216     149,999
        F-16-19       161,822     147,846
        F-16-20       159,314     147,488
        F-24-15       226,508     179,517
        F-24-16       291,808     211,090
        F-27-15       393,059     314,616
        F-27-16       332,173     315,746
        F-28-16        39,156      39,156
        F-28-17        39,979           0
        F-29-15       760,592     579,039
        F-29-16       445,837     373,021
        F-34-15       325,919     304,255
        F-34-16       378,573     638,018
        F-34-17       379,674     249,638
        F-35-09       788,679   1,127,630
        F-35-10       218,762     318,214
        F-39-13        35,575      21,790
        F-39-14        35,575      23,481
        F-39-15        36,710      30,090
        F-42-06       200,500     125,092
        F-42-07       190,126     125,907
        F-42-08       282,789     152,399
        F-47-03       309,845     211,473
        F-47-04       353,106     312,184
        F-47-05       344,485     307,815
        F-48-03        83,230      63,535
        F-48-04        95,032      66,578

                        9
                                              Appendix 1
                                                Page 2 of 3


          COMMONWEALTH OF PUERTO RICO
DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2006, THROUGH JUNE 30, 2008

          Grant        Grant      Claimed
         Number       Amount       Costs
         F-48-05       $127,124    $63,446
         F-49           702,000    913,914
         F-50-02        146,858    146,715
         F-50-03        281,572    213,802
         F-52-01        205,017    147,875
         F-52-02         87,266     72,055
         F-52-03         94,336     75,115
         F-53R-01       214,873    214,873
         F-53R-02       334,531    325,601
         F-53-R03       227,422    202,912
         F-54R-01       137,268    137,268
         F-55-DB-01     788,700    788,700
         F-56D-01       480,000    476,039
         FW-10-10       171,367    273,942
         FW-10-11       299,132    176,131
         FW-10-12       232,306    180,207
         FW-1-36        329,049    270,982
         FW-1-37        832,760    637,488
         FW-8-15        305,836    276,787
         FW-8-16        148,547    136,652
         W-13-17         21,500     16,170
         W-13-18         21,500     17,500
         W-13-19         19,500     17,500
         W-14-16        150,239     62,857
         W-14-17        185,734    137,937
         W-14-18        232,514    142,903
         W-21-09        296,836    297,446
         W-21-10        308,487    198,651
         W-23-05        133,486    133,486

                        10
                                               Appendix 1
                                                 Page 3 of 3


          COMMONWEALTH OF PUERTO RICO
DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2006, THROUGH JUNE 30, 2008

         Grant        Grant        Claimed
        Number       Amount          Costs
        W-23-06       $121,859      $120,926
        W-24-04         90,000        85,996
        W-24-05         90,000        90,110
        W-24-06        112,000       107,912
        W-26-01        188,620       220,165
        W-26-02        170,078       163,062
        W-26-03        193,754       153,860
        W-28R-01       301,877        28,678
        W-29R-01       300,646       217,688
        W-29R-02       223,646       221,494
        TOTALS     $17,151,750   $15,064,994




                         11
                                              Appendix 2


          COMMONWEALTH OF PUERTO RICO
DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES


                    SITES VISITED
                     Headquarters
                       San Juan

                        Other Sites
                Humacao Nature Reserve
                Isla de Cabras Boat Ramp
                    La Plata Reservoir
                    Lucchetti Reservoir
                  Maricao Fish Hatchery




                          12
                                                                     Appendix 3


                 COMMONWEALTH OF PUERTO RICO
      DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES
         STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations              Status                      Action Required

    A and B       FWS management concurs          Additional information is needed
                  with the recommendations, but   in the corrective action plan,
                  additional information is       including the actions taken or
                  needed as outlined in the       planned to implement the
                  “Actions Required” column.      recommendations, targeted
                                                  completion date(s), the title of
                                                  official(s) responsible for
                                                  implementation, and verification
                                                  that FWS officials reviewed and
                                                  approved of actions taken or
                                                  planned by the State. We will
                                                  refer recommendations not
                                                  resolved and/or implemented at
                                                  the end of 90 days (after March 3,
                                                  2010) to the Assistant Secretary
                                                  for Policy, Management and
                                                  Budget for resolution and/or
                                                  tracking of implementation.




                                 13
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
